OCT 3 2000


MEMORANDUM FOR:                 RAYMOND L. BRAMUCCI
                                Assistant Secretary
                                 for Employment and Training

                                      /S/
FROM:                           JOHN J. GETEK
                                Assistant Inspector General
                                  for Audit

SUBJECT:                        Postaward Survey of the Prince George’s Workforce Services
                                Corporation’s Welfare-to-Work Competitive Grant
                                Final Letter Report No. 03-00-013-03-386 (03-01-001-03-386)


This final letter report provides the results of our postaward survey of the Prince George’s Workforce
Services Corporation’s (PGWSC) Welfare-to-Work (WtW) Competitive Grant. The purposes of our
survey were to evaluate PGWSC’s financial management and program systems and to make an
assessment of its capability to administer the WtW competitive grant. Our work was performed using a
postaward survey guide designed by the Office of Inspector General to make an early assessment of
PGWSC’s program operations so that timely corrective action could be implemented to improve
program performance and internal controls.

Overall, we concluded that the PGWSC has the capability, including the necessary financial
management systems, to administer its WtW competitive grant. The PGWSC’s innovative WtW
approach includes education support coupled with job readiness training. This training emphasizes
clients’ orientation to the workplace by placing them in public and private entity internship programs to
develop the basic skills necessary to make the client job-ready. However, our audit disclosed that
changes must be made in reporting allocated costs in the WtW Financial Status Report, documenting
WtW eligibility, monitoring subrecipient operations, and implementing the subrecipient tuition cost
reimbursement policy.

Background and Scope

On January 4, 1999, PGWSC was awarded a $4.9 million WtW competitive grant. During the period
May 30 to June 8, 2000, we conducted an examination of the PGWSC’s and its subgrantee’s, the
Sylvan Learning Center, Inc. (Sylvan), program and financial management systems currently operational
for administering the WtW competitive grant. To accomplish our postaward survey, we examined
specific WtW provisions promulgated through Title 20, Code of Federal Regulations (CFR), Part 645.
We reviewed the grant agreement, project proposal, and operating procedures and policies. We also
interviewed a number of key staff who were involved in developing and operating PGWSC’s WtW
program. We performed our work in accordance with Government Auditing Standards issued by
the Comptroller General of the United States.

Findings and Recommendations

1.   WtW Costs Are Not Being Allocated in Accordance with WtW Regulations

The total WtW grant costs are currently being allocated by Sylvan based on the number of
70-percent and 30-percent enrollees. This allocation method does not comply with WtW regulations
which require that the dollar cost allocation between the two client categories be based on the amount
of service and/or time provided, not the number of clients served.

The WtW regulation in 20 CFR § 645.211 requires that at least 70 percent of the awarded WtW funds
be spent to benefit hard-to-employ individuals and no more than 30 percent of the awarded WtW
funds be spent to assist individuals with long-term welfare dependence characteristics. The Summary
and Explanation section of the WtW regulation cited above
explains that this requirement does not apply to the proportion of WtW participants served, but rather
to the percentage of funds expended on the participants in each of the 70-percent and
30-percent category. To comply with this requirement, the DOL Employment and Training
Administration’s (ETA) Technical Assistance Guide states that grantees must develop a mechanism to
capture costs by participant categories. The Technical Assistance Guide further explains that the most
effective method to achieve this is by the use of separate codes in the chart of accounts and
classification in the general ledger. Unless service costs, on a unit (enrollee) basis, is exactly the same
for the 70-percent and 30-percent client groups, costs entered into these general ledger accounts
should be supported by time sheets documenting the number of hours spent in serving the 70-percent
and 30-percent client categories.

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct PGWSC to revise
its 70/30 WtW cost allocation procedures to ensure that costs are allocated based on the amount of
time spent rather than the number of student enrollments.

2.   WtW Client Case Files Do Not Contain Documentation to Support WtW Eligibility

We reviewed 30 WtW client case files at the Prince George’s County and Baltimore field offices and
found that none contained verification from the local welfare agencies of the period of time the client
received Temporary Assistance for Needy Families (TANF) benefits. The only documentation of the
length of time the client was receiving TANF assistance was a self-certification form completed by the

                                                    2
client.


WtW Regulations in 20 CFR § 645.214 establishes the requirements for determining participant
eligibility, and states in part:

          The operating entity must ensure that there are mechanisms in place to determine WtW
          eligibility for individuals who are receiving TANF assistance. These mechanisms must
          include arrangements with the TANF agency to ensure that a WtW eligibility
          determination is based on information, current at the time of the WtW eligibility
          determination, about whether an individual is receiving TANF assistance . . . and the
          length of receipt of TANF assistance. . . .

A PGWSC official told us that to date, the local TANF agencies have been unable to provide the
eligibility information from its computer system. Therefore, in lieu of documentation from the TANF
agencies, PGWSC has adopted a self-certification procedure where the client provides the TANF
eligibility information.

Recommendation

We recommend that Assistant Secretary for Employment and Training instruct PGWSC to work with
the local TANF agencies in developing a mechanism to ensure that sufficient documentation is obtained
to document the WtW eligibility requirements.

3.   There Is No Documentation to Support That PGWSC Is Monitoring Subrecipient WtW
     Operations

Our review of PGWSC records indicated that there is no documented evidence of monitoring Sylvan’s
WtW grant operations.

PGWSC contracted with Sylvan to administer the entire WtW Competitive Grant Program. Sylvan, in
effect, became the subgrantee entity responsible for program performance. PGWSC’s role was limited
to oversight, program assistance, payment of invoices, and submission of program and fiscal reports to
the ETA. The financial status reports (FSRs) that PGWSC submits to the ETA are, with the exception
of one salary amount, based on the FSRs that Sylvan prepares and submits to PGWSC.

Our review of PGWSC records found that there is no documented evidence of monitoring Sylvan’s
WtW grant operations either on a program or financial basis. A PGWSC official told us that
monitoring consists of daily discussions which are held on a daily basis with Sylvan representatives
regarding grant operations. However, the discussions are not documented.



                                                   3
The Uniform Administrative Requirements for Nonprofit Organizations contained in
29 CFR § 95.51 on monitoring and reporting program performance, states in part:

          Recipients are responsible for managing and monitoring each project, program,
          subaward, function or activity supported by the award.

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct PGWSC to perform
monitoring reviews of Sylvan’s WtW operations and ensure that the reviews and any other monitoring
activities are documented.

4.   PGWSC Has Not Ensured That the Subrecipient Tuition Cost Reimbursement Policy
     Was Implemented.

As of the completion of our fieldwork on June 8, 2000, no tuition credits have been applied by Sylvan
to the tuition costs charged to the WtW grant, although the tuition reimbursement policy requires that
such credits are to be calculated at the end of the calendar year.

For providing services to WtW enrollees, Sylvan charges the WtW grant the “off-the-shelf” price,
which is the amount they charge to the public. This training, which is similar to the educational services
provided by other Sylvan Learning Centers, is broken down into three phases. The first phase involves
intensive basic education and job readiness training; the second phase consists of continuing education
while serving in internships; and the third phase stresses postemployment continuing education for up to
8 months.

Sylvan’s tuition policy for the WtW program provides for tuition credits to be applied against tuition
costs charged to the WtW grant. The amount of the tuition credits, based on various stages of course
completion, will be computed annually by Sylvan. Sylvan will request the PGWSC’s verification and
agreement with the computed credit amounts. After concurrence, Sylvan will apply these credits to the
invoice payment amounts that occur after the credit amount has been agreed upon.

Sylvan started enrolling WtW clients in April 1999. As of June 2000, we found no tuition credits have
yet been calculated and applied to the WtW grant. Based on data compiled as of December 30, 1999,
we concluded that tuition credits should have been calculated and applied. We found that 12 percent
of the WtW enrollees dropped out of the first phase prior to entering the workplace/internships. Also,
only 18.7 percent of the WtW enrollees completed all three phases while serving in
workplace/internships.




                                                    4
OMB Circular A-122, Attachment A, General Principles, 5a. states in part:

     The term applicable credits refers to those receipts, or reduction of expenditures which
     operate to offset or reduce expense items that are allocable to awards as direct or indirect
     costs. . . . To the extent that such credits accruing or received by the organization relate to
     allowable cost, they shall be credited to the Federal Government either as a cost reduction or
     cash refund, as appropriate.

Recommendations

We recommend that the Assistant Secretary for Employment and Training instruct PGWSC to monitor
Sylvan’s progress in calculating the tuition credit amounts to ensure that these credits are reasonable
and promptly applied to tuition costs being charged to the grant. In addition, since tuition credits are
being applied only to future Sylvan tuition billings, any accrued tuition credits not applied by Sylvan to
tuition invoices should be refunded by Sylvan at the end of the grant period.


                         *       *        *       *       *        *       *

On August 11, 2000, we sent PGWSC’s President a letter providing the results of our survey.
PGWSC did not provide a written response to our letter.

This final letter report is submitted for your resolution action. We request a response to the
recommendations within 60 days. It is your office’s responsibility to transmit this final letter report
promptly to program officials for resolution.

If you have any questions, please contact Roger B. Langsdale, Regional Inspector General for Audit, in
Philadelphia at (215) 656-2300.




                                                      5
